TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2011 Statutory Review of
                         Restrictions on Directly Contacting
                                     Taxpayers



                                        September 16, 2011

                                Reference Number: 2011-30-090




   This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.

   Redaction Legend:
   1 = Tax Return/Return Information



Phone Number | 202-622-6500
Email Address | TIGTACommunications@tigta.treas.gov
Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


FISCAL YEAR 2011 STATUTORY                            contact provisions during audits than the small
REVIEW OF RESTRICTIONS ON                             number of complaints filed with TIGTA’s Office
DIRECTLY CONTACTING TAXPAYERS                         of Investigations indicate.
                                                      Twelve tax representatives provided written
                                                      accounts of their experiences where they
Highlights                                            believe examiners were starting audits
                                                      without the authorized representative or
Final Report issued on                                insisting on interviewing taxpayers after they
September 16, 2011                                    had secured representation. In addition,
                                                      three IRS employees told TIGTA some
Highlights of Reference Number: 2011-30-090           examiners routinely contact taxpayers
to the Internal Revenue Service                       initially when starting an audit regardless of
Commissioners for the Large Business                  whether a valid Power of Attorney and
and International Division and Small                  Declaration of Representative (Form 2848)
Business/Self-Employed Division.                      was filed with the IRS. Further, TIGTA’s
                                                      review of 20 open large corporate audits,
IMPACT ON TAXPAYERS                                   found four instances where examiners
Internal Revenue Service (IRS) employees are          contacted taxpayers to begin the audit even
required to stop an interview if the taxpayer         though the Form 2848 was in IRS files.
requests to consult with a representative and         WHAT TIGTA RECOMMENDED
may not bypass a representative without
supervisory approval. Between October 2009            TIGTA recommended that the Deputy
and September 2010, TIGTA’s Office of                 Commissioner (Operations), LB&I Division,
Investigations closed five complaints involving       ensure examiners use available information
allegations that IRS personnel improperly             systems to involve tax representatives in the
bypassed a taxpayer representative.                   opening stages of the audit. TIGTA also
                                                      recommended that the Deputy
WHY TIGTA DID THE AUDIT                               Commissioner (Operations), LB&I Division,
This audit was initiated because TIGTA is             and the Director, Examination, Small
required to annually report on the IRS’s              Business/Self-Employed Division, coordinate
compliance with Internal Revenue Code                 in initiating actions to review and revise, as
Sections 7521(b)(2) and (c). The overall              needed, the language in audit initiation
objective of this audit was to determine whether      letters so it is clear that representatives can
the IRS complied with the legal guidelines            attend all audit appointments on behalf of
addressing the direct contact of taxpayers and        the taxpayer and provide an annual
their representatives.                                refresher briefing for examiners on the
                                                      importance of adhering to the processes
WHAT TIGTA FOUND                                      designed to recognize taxpayer
                                                      representation.
TIGTA varied the scope of its review this year to
include discussions with, and analysis of,            IRS officials agreed with two recommendations.
information received from tax representatives         The IRS plans to provide written guidance on
and personnel from the IRS’s Large Business           using IRS data systems to review power of
and International (LB&I) Division who reached         attorney information and review the audit contact
out to TIGTA about concerns they had over             letter for needed revisions. IRS officials did not
potential unreported direct contact violations.       concur with providing refresher training, citing
TIGTA also evaluated a judgmental sample of           recent updates to guidelines and possible
20 out of 2,168 large corporate audits that were      changes to the audit contact letter. TIGTA
open in the LB&I Division at the time of this         believes this recommendation remains valid.
review. TIGTA’s results indicate the IRS may be
at greater risk of infringing upon the direct
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 16, 2011


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                 (for)   Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2011 Statutory Review of Restrictions
                               on Directly Contacting Taxpayers (Audit # 201130004)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with legal guidelines addressing the direct contact of taxpayers and their
 representatives as set forth in Internal Revenue Code Sections 7521(b)(2) and (c). The Treasury
 Inspector General for Tax Administration is statutorily required to conduct this audit. This audit
 was conducted as part of our Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Margaret E.
 Begg, Assistant Inspector General for Audit (Compliance and Enforcement Operations), at
 (202) 622-8510.
                        Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                           Contacting Taxpayers




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          An Array of Internal Controls Help Ensure Compliance With the Direct
          Contact Provisions of the Internal Revenue Code ....................................... Page 3
          Multiple Sources Suggest Additional Actions Are Needed to Reduce
          the Risk of Infringing Upon Taxpayer Rights During Audits .................... .Page 7
                     Recommendations 1 through 3:......................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Previous Audit Reports Related to This Statutory
          Review .......................................................................................................... Page 17
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
         Fiscal Year 2011 Statutory Review of Restrictions on Directly
                            Contacting Taxpayers




                        Abbreviations

FY             Fiscal Year
I.R.C.         Internal Revenue Code
IRM            Internal Revenue Manual
IRS            Internal Revenue Service
LB&I           Large Business and International
SB/SE          Small Business/Self-Employed
TIGTA          Treasury Inspector General for Tax Administration
                    Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                       Contacting Taxpayers




                                            Background

This is the thirteenth year reporting that neither we nor the Internal Revenue Service (IRS) know
with any degree of preciseness how well the IRS is complying with direct contact provisions of
Internal Revenue Code (I.R.C.) Sections (§§) 7521(b)(2) and (c) because of limitations with its
management information systems. As we reported in prior years,1 the systems are not capable of
readily identifying complaints when IRS personnel deny a taxpayer’s right to representation or
bypass his or her representative without proper approval.
However, taxpayer complaints that allege IRS employees bypassed their representatives and
contacted them directly are tracked by the Treasury Inspector General for Tax Administration’s
(TIGTA) Office of Investigations on the Performance and Results Information System.2 The
Office of Investigations closed five direct contact complaints between October 2009 and
September 2010 that involved an examiner and four collectors. **************1**********
***********************************1*****************************************
***********************************1****************************************
***********1*********.
The Omnibus Taxpayer Bill of Rights,3 enacted in 1988, created a number of safeguards to
protect taxpayers being interviewed by IRS employees as part of an audit or investigation.
Specifically, IRS employees are required by the direct contact provisions of I.R.C. §§ 7521(b)(2)
and (c) to:
    •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
    •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
        representative if the representative is responsible for unreasonably delaying the
        completion of an audit or investigation.
A taxpayer can file a civil suit against the IRS if an IRS employee intentionally disregards these
provisions by denying a taxpayer the right to appropriate representation.
On July 22, 1998, the President signed into law the IRS Restructuring and Reform Act of 1998,4
which required the IRS to revise Your Rights as a Taxpayer (Publication 1) to inform taxpayers


1
  See Appendix IV for a list of previous audit reports related to this review.
2
  The Performance and Results Information System is a management information system that provides the TIGTA
with the ability to manage complaints received and investigations initiated.
3
  Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
4
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                            Page 1
                 Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                    Contacting Taxpayers



of their rights to a) be represented at interviews and b) suspend an interview pursuant to
I.R.C. § 7521(b)(2).
In addition, Congress included another provision to the IRS Restructuring and Reform Act of
1998 that requires the TIGTA to annually evaluate the IRS’s compliance with the direct contact
provisions. Senate Committee on Finance Report 105-174 (dated April 22, 1998), related to the
Act, stated that Congress believes taxpayers should be more fully informed of their rights to
representation in dealing with the IRS and those rights should be respected.
This review was performed at the IRS National Headquarters in the offices of the Commissioner,
the National Taxpayer Advocate, and the Large Business and International (LB&I) Division in
Washington, D.C., and the Small Business/Self-Employed (SB/SE) Division Headquarters in
New Carrollton, Maryland, during the period August 2010 through April 2011. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                             Page 2
                    Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                       Contacting Taxpayers




                                   Results of Review

Because of the limitations with IRS management information systems, we varied the scope of
our review this year to include discussions with tax representatives and personnel from the IRS’s
LB&I Division who reached out to the TIGTA about concerns they had over potential unreported
direct contact violations. Despite layers of IRS management controls, our work this year
surfaced evidence that suggests the IRS may be at greater risk of infringing upon the direct
contact provisions during audits than the complaints filed with the TIGTA’s Office of
Investigations indicate.

An Array of Internal Controls Help Ensure Compliance With the Direct
Contact Provisions of the Internal Revenue Code
Ultimately, the IRS relies on its examiners and collectors to properly consider and protect
taxpayer rights when conducting audits and taking collection actions. To assist examiners and
collectors in meeting these responsibilities, the IRS has an array of policies, procedures, and
techniques (internal controls) that are in line with the Government Accountability Office’s
Standards for Internal Control in the Federal Government.5
The IRS’s mission statement and supporting policy statements provide guidance nationwide to
IRS compliance and other personnel who have contact with taxpayers. Figure 1 provides an
example of IRS Policy Statement 5-2, which contains the core principles that underscore the
importance of protecting taxpayer rights as well as providing the public with quality, courteous,
and effective assistance in collecting unpaid taxes.




5
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                           Page 3
                     Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                        Contacting Taxpayers



                    Figure 1: Core Principles for Collecting Unpaid Taxes

                                   Excerpt From IRS Policy Statement 5-2

                Principles                                                    Description

     OVERARCHING PRINCIPLES                      All our decisions about collecting must be guided by these principles.
                                                 To the extent that they are, we will succeed in our mission.

      SERVICE AND ASSISTANCE

 All taxpayers are entitled to courteous,        We will actively assist taxpayers who try to comply with the law and
 responsive, and effective service and           work to continually improve the quality of our systems and service to
 assistance in all their dealings with the       meet the needs of our customers. All taxpayers, whether delinquent or
 Service.                                        fully compliant, are entitled to prompt and professional service
                                                 whenever they deal with Service employees.

           TAXPAYER RIGHTS

 We will observe taxpayers’ rights,              This affirms our commitment to observe both the spirit as well as the
 including their rights to privacy and to fair   letter of all legal requirements, including the Taxpayer Bill of Rights I
 and courteous treatment.                        and II and the IRS Restructuring and Reform Act of 1998. Taxpayers
                                                 will be protected from unauthorized disclosure of information.

              COMPLIANCE

  The public trust requires us to ensure that    The public as a whole is our customer, not just delinquent taxpayers.
  all taxpayers promptly file their returns      Our customers expect us to promote voluntary compliance by ensuring
  and pay the proper amount of tax,              that all promptly pay their fair share.
  regardless of the amount owed.

           CASE RESOLUTION

 While we will actively assist taxpayers to      All taxpayers are required to pay by the due date of the return. From a
 comply, we will also take appropriate           broad range of collecting tools, employees will select the one(s) most
 enforcement actions when warranted to           appropriate for each case. Case resolution, including actions such as
 resolve the delinquency. To resolve a           lien, levy, seizure of assets, installment agreement, offer in
 case, good judgment is needed to make           compromise, substitute for return, summons, and I.R.C. 6020(b), are
 sound decisions on the appropriate action       important elements of an effective compliance program. When it is
 needed.                                         appropriate to take such actions, it should be done promptly, yet
                                                 judiciously, and based on the facts of each case.

Source: Excerpt from IRS Policy Statement 5-2 – Collecting Principles.

These core principles are critical to setting the appropriate tone for agency activities and
interactions with taxpayers and their representatives, especially because documentation of the
interactions is controlled by examiners. To supplement agency-level mission and policy

                                                                                                                 Page 4
                       Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                          Contacting Taxpayers



statements, the IRS uses, and periodically updates, the Internal Revenue Manual (IRM)6 and
numerous taxpayer publications. Both the IRM and taxpayer publications are available online
and are designed to provide guidance nationwide to IRS personnel and taxpayers alike.

The IRM and taxpayer publications are important control components
From a control perspective, both the IRM and taxpayer publications are important because they
provide detailed explanations and instructions of the statutory, business, and administrative
procedures the IRS follows in administering the tax laws, including the direct contact provisions
of I.R.C. §§ 7521(b)(2) and (c). For example, the IRS uses Publication 1 as the main document
to keep taxpayers informed of their rights and to explain the audit, collection, appeals, and refund
processes. Publication 1 also includes a contact number for the TIGTA where suspected
violations of the direct contact provisions and other potential misconduct or abuse by IRS
employees can be reported. In addition, Publication 1 includes the following information
concerning taxpayers’ rights to be represented at interviews with the IRS and to suspend an
interview pursuant to I.R.C. § 7521(b)(2).
       You may either represent yourself or, with proper written authorization, have someone else
       represent you in your place. Your representative must be a person allowed to practice before
       the IRS, such as an attorney, certified public accountant, or enrolled agent. If you are in an
       interview and ask to consult such a person, then we must stop and reschedule the interview in
       most cases.
The IRS includes information on these rights in other publications, such as:
       •   Your Federal Income Tax (Publication 17).
       •   Tax Guide for Small Business (Publication 334).
       •   Examination of Returns, Appeal Rights, and Claims for Refund (Publication 556).
       •   The Examination Process (Publication 3498).
In addition, the IRS uses Practice Before the IRS and Power of Attorney (Publication 947) to
inform taxpayers of their representatives’ responsibilities and to notify taxpayers that the IRS has
the authority to bypass representatives that are uncooperative. Specifically, Publication 947
states “After a valid power of attorney is filed, the IRS will recognize your representative.
However, if it appears the representative is responsible for unreasonably delaying or hindering
the prompt disposition of an IRS matter by failing to furnish, after repeated requests,
non-privileged information, the IRS can contact you directly.”




6
    This is a manual containing the IRS’s internal guidelines.
                                                                                              Page 5
                 Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                    Contacting Taxpayers



A number of internal controls are also in place at the operational level
At the operational level, the first-line managers over IRS collectors and examiners (enforcement
personnel) are a key control because they are responsible for ensuring that the personnel they
supervise follow procedures and that their work meets acceptable standards. To assist managers
in ensuring procedures are followed and standards are met, the IRM requires managers to
conduct reviews over the work of the personnel they supervise, both while it is in process and
after it is completed. These control techniques, as we have previously reported, help identify
problems so prompt corrective actions, if needed, can be taken.
In response to our reports over the years, the IRS has taken a number of steps to reinforce upon
first-line managers the need to ensure the personnel they supervise are adhering to the direct
contact provisions. For example, the SB/SE Division issued a memorandum to its first-line
managers in Fiscal Years (FY) 2001 and 2002 directing them to “take whatever steps are
necessary (including discussion in group meetings, case reviews, workload reviews, on-the-job
visits, and taxpayer/POA [Power of Attorney] inquiries) to ensure these requirements [the
requirements mandated by I.R.C. §§ 7521(b)(2) and (c)] are understood and followed by
employees.” In August 2006, April 2010, and May 2010, the IRS updated the IRM to include
specific directions for SB/SE Division managers in its Collection and Examination functions on
how to ensure compliance with the direct contact provisions of I.R.C. §§ 7521(b)(2) and (c). The
guidance provided in April 2010 directed that initial contact for audits must be made with an
authorized representative.
Besides first-line management reviews, quality measurement staffs annually review hundreds of
closed enforcement cases to measure and evaluate the quality of audits and collection actions,
communicate areas of concern to upper management, identify potential training needs, and
improve work processes. While these reviews do not specifically address adherence to the direct
contact provisions, they do assess the degree to which enforcement personnel are complying with
procedures for protecting taxpayer rights. For FY 2010 and the first quarter of FY 2011, the
SB/SE Division’s quality measurement staff reported that examiners complied with the
procedures for protecting taxpayer rights in 77 percent of the cases reviewed for field audits and
93 percent of cases reviewed for office audits.
In addition to reviews by first-line managers and the quality measurement staffs,
mid-level managers may evaluate ongoing work in open audits and collection cases during their
operational reviews. Operational reviews are required to be performed at least annually to
ensure work is being done in conformance with procedures. These processes serve as a quality
control by identifying managerial, technical, and procedural problems and providing a basis for
corrective actions.




                                                                                           Page 6
                  Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                     Contacting Taxpayers



Multiple Sources Suggest Additional Actions Are Needed to Reduce
the Risk of Infringing Upon Taxpayer Rights During Audits
It is important to recognize that the evidence we have obtained from the TIGTA’s Office of
Investigations over the years suggests potential direct contact violations are small considering
that thousands of IRS enforcement personnel routinely interact with millions of taxpayers and
their representatives each year. However, it is also important to recognize that the rights of each
taxpayer are critical to ensuring the integrity and fairness of the tax system.
Despite layers of management controls, available evidence suggests the IRS may be at greater
risk of infringing upon the direct contact provisions than the complaints filed with the TIGTA’s
Office of Investigations indicate. Between October 2009 and September 2010, the TIGTA’s
Office of Investigations closed five complaints involving allegations that IRS personnel
improperly bypassed a taxpayer representative. The National Taxpayer Advocate’s 2010 Annual
Report to the Congress documented practitioner concerns from the Low Income Taxpayer
Clinics and American Institute of Certified Public Accountants about IRS personnel in various
functions bypassing representatives without reason and without regard for the bypass procedures.
Additionally, our contacts with tax representatives and LB&I Division personnel during this
review showed that some examiners may not be appropriately involving tax representatives in
audits and other tax administration matters. As summarized below, 2 tax representatives
provided written accounts collected from 12 other representatives where they believe examiners
may have attempted to bypass the representative.
   •    Three representatives described events where examiners or collectors initially contacted
        only the taxpayer when a Power of Attorney and Declaration of Representative
        (Form 2848) had been previously filed with the IRS.
   •    Nine representatives related events in audits where examiners were insisting on
        interviewing the taxpayer, often in the initial interview, when it had not yet been
        determined that the representatives could not complete the audit themselves. In four of
        these instances, the representatives noted that examiners indicated they would use a
        summons to compel taxpayers to appear for an interview at the beginning stages of
        audits.
Due to time constraints, we did not attempt to verify the accuracy of the accounts the
representatives submitted by retrieving and evaluating IRS case files during this review.
However, we did share the accounts with IRS officials after redacting the personal identifying
information contained in the documents. As reflected in the following IRS statements, the
officials believe there may be some misunderstanding among the representatives about IRS
audits.
       Review of the representative’s written accounts indicates there may be some
       misunderstandings among the representatives related to the Service’s rights,
                                                                                             Page 7
                 Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                    Contacting Taxpayers



     responsibilities and policies regarding interviewing individuals who possess appropriate
     knowledge of the business; summonsing when appropriate; and conducting a tour of the
     business. Internal Revenue Code Section 7521(c) states that an examiner cannot require a
     taxpayer to accompany an authorized representative to an examination interview in the
     absence of an administrative summons; however, that does not prevent examiners
     from requesting the taxpayer’s voluntary presence at the interview as a means to facilitate
     the examination process. Examiners should not conduct the interview with representatives
     who are not knowledgeable regarding the taxpayer’s business practices and merely serve
     as a courier, shuttling questions and answers between the examiner and the taxpayer. This
     type of arrangement may obstruct the flow of the examination. If the representative and
     taxpayer will not consent to the taxpayer being interviewed for those cases where it is
     determined to be appropriate, the examiner and group manager should consider issuing a
     summons. The issuance of a summons is not a “threat” as referenced by some of the
     representatives but rather an enforcement action which is sometimes necessary to secure
     information to resolve a case.
     Additionally, a tour of the business and/or the physical observation of the taxpayer’s
     operations serve as an integral part of the examination process. Treasury Regulation
     section 301.7605-1(d)(3)(iii) states: “regardless of where an examination takes place, the
     Service may visit the taxpayer’s place of business or residence to establish facts that can
     only be established by direct visit, such as inventory or asset verification. The Service
     generally will visit for these purposes on a normal workday of the Service during the
     Service’s normal tour of duty hours.” From the review of the written accounts the
     Service’s requests for tours of the taxpayer’s business were appropriate.
Besides the representative accounts, three IRS employees working in its LB&I Division reached
out to the TIGTA this year with concerns that some examiners routinely contact taxpayers
initially when starting audits regardless of whether a valid Form 2848 was filed with the IRS.
Interviewing taxpayers initially without the presence of the representative presents an
opportunity to obtain more spontaneous and unrehearsed responses from taxpayers that might not
have otherwise been provided about their financial situation, tax records, and business
operations. IRS personnel also told us that the practice of initiating audits with taxpayers, rather
than involving tax representatives, was emphasized by instructors in an examiner training class.
Moreover, our review of a judgmental sample of 20 out of 2,168 large corporate audits that were
open in the LB&I Division at the time of this review seemed to corroborate the assertions of IRS
personnel about LB&I Division examiners initiating audits with taxpayers. Of the 20 cases
reviewed, 4 were initiated with the taxpayer even though a Form 2848 was recorded in IRS files.

A combination of at least three factors likely contributed to the concerns
First, our review of the 20 cases showed that examiners are not taking advantage of the IRS’s
automated information systems to identify and involve tax representatives during the initial
stages of audits. In reviewing the 20 audit case files, we accessed the IRS’s automated
                                                                                             Page 8
                    Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                       Contacting Taxpayers



information systems7 to determine if the taxpayers filed a Form 2848 with the IRS. For 12 of the
20 audits, we saw no documentation that this resource was used to determine if a Form 2848 was
on file with the IRS before the audit was initiated. In addition, we found that only 5 of 20
examiners involved in the cases we reviewed had the capability to access the systems. IRS
officials told us that it is common for examiners to have clerical personnel access the IRS
automated systems and secure needed documentation for them.
Second, the language in the audit contact letter (Letter 2205) used by field examiners to initiate
audits could be confusing taxpayers and examiners alike because it seemingly creates an
expectation that taxpayers need to attend the first appointment. For example, in addition to
identifying and including sources of information that explain the rules, procedures, and processes
the IRS follows during the audits, the Letter informs taxpayers that they may have someone
represent them during any part of the audit. However, the Letter also requests taxpayers to
submit a completed Form 2848 at the first appointment, or prior to it, if they want someone to
represent them during the audit. In contrast, the language in the audit contact letter (Letter 2202)
used by office examiners informs taxpayers that if they are not attending their first audit
appointment, they must submit a completed Form 2848 in advance.
Third, there is a concern that some examiners may believe it is more efficient to initiate audits
directly with taxpayers rather than involve tax representatives. Field examiners typically
conduct detailed interviews during the first appointment and request to see the business facilities
of the taxpayer under audit. From an examiner perspective, the interview process and business
tour are critical components of the audit process because they are designed to provide
information about the taxpayer’s financial condition, business operations, and books and records.
They also help set the scope and depth of the audit and are used to obtain leads, develop
information, and establish evidence. However, despite the importance to field examiners,
taxpayers have the right under the tax laws to have a representative attend the first appointment
and all other appointments on their behalf.
The National Taxpayer Advocate’s report expressed the need to provide annual training for IRS
employees who routinely interact with taxpayers and representatives. Given the risk that a
number of potential direct contact violations may be occurring and not being reported, we
believe the National Taxpayer Advocate’s recommendation to provide annual training could be a
cost-effective solution to help alleviate these concerns. This training would be in-line with the
IRS learning and education policy, which requires all employees to complete short, mandatory
refresher training in critical areas of tax administration such as ethics and information security.
It would also be consistent with internal control standards, which require all personnel to possess
and maintain a level of competence that allows them to accomplish their assigned duties.

7
 These include, among others, IRS Business Master File and Centralized Authorization File. The Business Master
File is a database that consists of Federal tax-related transactions and accounts for businesses. The Centralized
Authorization File is a computerized system of records which houses authorization information from both powers of
attorney and tax information authorizations.
                                                                                                         Page 9
                 Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                    Contacting Taxpayers



Recommendations
Recommendation 1: The Deputy Commissioner (Operations), LB&I Division, should ensure
examiners and their immediate managers take advantage of the IRS’s automated information
systems to identify and involve tax representatives during the initial stages of audits.
       Management’s Response: IRS officials agreed with this recommendation. The
       Deputy Commissioner (Operations), LB&I Division, will provide written guidance to
       examiners and frontline managers on their responsibility to take proper steps to review
       the power of attorney information from the IRS data systems prior to contacting
       taxpayers.
The Deputy Commissioner (Operations), LB&I Division, and the Director, Examination, SB/SE
Division, should coordinate in initiating actions:
Recommendation 2: To review the language in Letter 2205 and use the review results to
revise the language, as needed, so it is clear that tax representatives can attend all audit
appointments on behalf of taxpayers.
       Management’s Response: IRS officials agreed with this recommendation. The
       Director, Examination, SB/SE Division, will coordinate with the Deputy Commissioner
       (Operations), LB&I Division, to review the language in Letter 2205 and revise the
       language, if needed, so it is clear that tax representatives can attend all audit
       appointments on behalf of taxpayers.
Recommendation 3: Needed to provide periodic refresher briefings for examiners on the
importance of adhering to the processes designed to recognize taxpayer representation.
       Management’s Response: IRS officials did not concur with this recommendation.
       In April 2010, the SB/SE Division revised two IRM sections to provide additional
       directions to staff regarding the importance of adhering to the processes designed to
       recognize taxpayer representation. IRS officials indicated they believe the recent updates
       to the IRM, as well as any revisions made to the initial appointment letter as determined
       from Recommendation 2, will provide the appropriate guidance.
       Office of Audit Comment: TIGTA believes this recommendation remains valid and
       is not alone in its position. As discussed in the report, the National Taxpayer Advocate
       has reported receiving practitioners concerns about IRS personnel bypassing
       representatives without reason and has similarly concluded there is a need for additional
       training. In their response to TIGTA’s report, IRS officials indicated that they believe the
       report may overstate the number of occurrences of potential direct contact violations
       because we used unverified anecdotal accounts from taxpayer representatives to cite
       possible violations. They further stated that they believe these representatives may have
       misinterpreted IRS normal audit procedures to request to interview the taxpayer, when

                                                                                          Page 10
          Fiscal Year 2011 Statutory Review of Restrictions on Directly
                             Contacting Taxpayers



appropriate, and tour the taxpayer’s business location as an attempt to bypass the
representative’s valid power of attorney which is not the case. As noted in the report, we
did not attempt to verify the accuracy of the accounts the representatives provided due to
the time constraints imposed upon us for completing this review. However, we did refer
the written accounts provided by the representatives to TIGTA’s Office of Investigations
for appropriate action.




                                                                                  Page 11
                   Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                      Contacting Taxpayers



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with legal
guidelines addressing the direct contact of taxpayers and their representatives as set forth in
I.R.C. §§ 7521(b)(2) and (c). To accomplish this objective, we:
I.      Determined if an IRS system and/or process has been implemented since our last review
        to identify those cases where taxpayers have requested to consult with a representative or
        where IRS employees bypassed a representative and directly contacted the taxpayer.
        A. Interviewed IRS management personnel in the SB/SE and LB&I Divisions.
        B. Reviewed a judgmental sample of 20 of 2,168 LB&I Division open industry cases
           where the taxpayers had a power of attorney in the audit and the cases were open in
           the third and fourth quarters of FY 2010. This sample was taken to validate concerns
           raised by LB&I Division personnel who reached out to the TIGTA concerning
           examiners making first contacts with taxpayers. We also evaluated the cases to
           identify any indication of the following potential violations of I.R.C.
           §§ 7521(b)(2) or (c):
            a. The examiner denied the taxpayer the opportunity to obtain representation.
            b. The examiner bypassed the representative and contacted the taxpayer directly.
            c. The examiner mandated the appearance of the taxpayer with an authorized
               representative.
II.     Determined if any systems or processes have been modified since our last review to track
        taxpayer complaints relating to IRS violations of I.R.C. §§ 7521(b)(2) and (c).
        A. Interviewed IRS personnel responsible for the Taxpayer Advocate Management
           Information System1 and the e-trak System2 to determine if these two systems have
           been modified to track taxpayer complaints relating to IRS violations of I.R.C.
           §§ 7521(b)(2) and (c).
        B. Reviewed the TIGTA Office of Investigations’ complaint and investigation cases that
           were closed in FY 2010 and tracked on the Performance and Results Information

1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service function employees.
2
  The e–trak application is a web-based data tracking application that enables meaningful data management,
tracking, retrieval, and reporting.
                                                                                                     Page 12
                   Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                      Contacting Taxpayers



            System3 to determine the validity of these cases and what actions the IRS has taken as
            a result, as well as the potential number of taxpayers that may have had their rights
            and entitlements infringed upon.
III.    Evaluated the complaints received by the Deputy Inspector General for Audit to gain an
        understanding of the issues raised and determine if the IRS has proper controls to address
        the concerns identified.
        A. Interviewed two tax representatives about the concerns they had raised on IRS
           employees bypassing taxpayers’ representatives and reviewed documentation they
           provided regarding direct contact complaints.
        B. Contacted TIGTA Office of Investigations personnel to determine if there are
           investigations that have started as a result of forwarding these allegations to them and
           the current status of any related investigation.
        C. Researched the pertaining IRMs and training materials to identify the LB&I Division
           audit process and determine if the LB&I Division has proper procedures/guidelines
           and trainings in response to I.R.C. §§ 7521(b)(2) and (c).
IV.     Reviewed information on the actions taken by the IRS in response to I.R.C.
        §§ 7521(b)(2) and (c) to determine the impact of these code sections on IRS programs.
        A. Reviewed prior TIGTA audit reports to identify recommendations and the IRS’s
           planned corrective actions.
        B. Evaluated the procedures in the IRM to determine whether the IRS has completed
           the corrective action in response to our FY 2009 report.4 The planned corrective
           action was to update IRM Section 1.4.40, Resource Guide for Managers - SB/SE
           Compliance Field Examination Group Manager, to include specific guidance
           for Examination function group managers to ensure that the requirements of
           I.R.C. §§ 7521(b)(2) and (c) are understood and followed.
        C. Researched the IRS Intranet to identify additional guidance to IRS employees for
           meeting the direct contact provisions and determine the impact on IRS programs.
        D. Reviewed www.IRS.gov and the related IRS publications to identify how the IRS
           informs taxpayers of its prohibition against directly contacting taxpayers and
           evaluated whether they provide adequate guidance for taxpayers and their
           representatives.


3
  The Performance and Results Information System is a management information system that provides the TIGTA
with the ability to manage complaints received and investigations initiated.
4
  Fiscal Year 2009 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2009-30-054, dated March 24, 2009).
                                                                                                    Page 13
                 Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                    Contacting Taxpayers



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective:
• The agency level internal control activities:
    a. The IRS’s mission statement and supporting policy statements along with the IRM
       guidelines provide guidance to IRS employees to ensure compliance with direct contact
       provisions.
    b. Numerous publications keep taxpayers informed of their rights.
•   The operational level internal control activities: the first line managers are responsible for
    ensuring the personnel they supervise follow procedures and that their work meets acceptable
    standards. They will need to review the work of the personnel they supervise, both while it is
    in process and after it is completed, which helps identify problems so prompt corrective
    actions, if needed, can be taken.




                                                                                          Page 14
                Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                   Contacting Taxpayers



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Alan Lund, Audit Manager
Jean Kao, Lead Auditor
Stanley Pinkston, Senior Auditor




                                                                                      Page 15
                Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                   Contacting Taxpayers



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (Operations), Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Pre-Filing and Technical Guidance, Large Business and International Division
SE:LB:PFTG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Large Business and International Division SE:LB




                                                                                    Page 16
                Fiscal Year 2011 Statutory Review of Restrictions on Directly
                                   Contacting Taxpayers



                                                                             Appendix IV

    Previous Audit Reports Related to This Statutory
                        Review

The Internal Revenue Service Needs to Enhance Guidance on and Monitoring of Compliance
With Procedures for Directly Contacting Taxpayers and Their Representatives (Reference
Number 1999-10-076, dated September 30, 1999).
Letter Report: Improvements Have Been Implemented for Directly Contacting Taxpayers and
Their Representatives (Reference Number 2000-10-132, dated September 18, 2000).
Letter Report: The Internal Revenue Service Has Not Implemented a Process to Monitor
Compliance With Direct Contact Provisions (Reference Number 2001-10-116, dated
July 23, 2001).
The Internal Revenue Service Cannot Monitor Its Compliance With the Direct Contact
Provisions (Reference Number 2002-40-177, dated September 11, 2002).
Fiscal Year 2003 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2003-40-131, dated June 16, 2003).
Fiscal Year 2004 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2004-40-059, dated February 24, 2004).
Fiscal Year 2005 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2005-40-040, dated February 22, 2005).
Fiscal Year 2006 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2006-40-136, dated August 28, 2006).
Fiscal Year 2007 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2007-40-118, dated July 13, 2007).
Fiscal Year 2008 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2008-40-090, dated March 27, 2008).
Fiscal Year 2009 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2009-30-054, dated March 24, 2009).
Fiscal Year 2010 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2010-30-060, dated June 3, 2010).



                                                                                       Page 17
    Fiscal Year 2011 Statutory Review of Restrictions on Directly
                       Contacting Taxpayers



                                                      Appendix V

Management’s Response to the Draft Report




                                                             Page 18
Fiscal Year 2011 Statutory Review of Restrictions on Directly
                   Contacting Taxpayers




                                                         Page 19
Fiscal Year 2011 Statutory Review of Restrictions on Directly
                   Contacting Taxpayers




                                                         Page 20
Fiscal Year 2011 Statutory Review of Restrictions on Directly
                   Contacting Taxpayers




                                                         Page 21
